                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-00899-261




    Combined Assessment Program

            Review of the

       Hunter Holmes McGuire

         VA Medical Center

         Richmond, Virginia





August 5, 2013

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations

                    Telephone: 1-800-488-8244

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA



                                                Glossary
                 CAP              Combined Assessment Program
                 CLC              community living center
                 CS               controlled substances
                 CSC              Controlled Substances Coordinator
                 ED               emergency department
                 EHR              electronic health record
                 EOC              environment of care
                 facility         Hunter Holmes McGuire VA Medical Center
                 FPPE             Focused Professional Practice Evaluation
                 FY               fiscal year
                 HPC              hospice and palliative care
                 IUS              immediate use sterilization
                 LIP              licensed independent practitioner
                 MEC              Medical Executive Committee
                 NA               not applicable
                 NC               noncompliant
                 OIG              Office of Inspector General
                 OR               operating room
                 PCCT             Palliative Care Consult Team
                 PU               pressure ulcer
                 QM               quality management
                 RME              reusable medical equipment
                 SPS              Sterile Processing Service
                 VHA              Veterans Health Administration
                 VISN             Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                 CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA



                                            Table of Contents

                                                                                                                           Page

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishment........................................................................................                  2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections............................................................. 8

  Coordination of Care – HPC ................................................................................... 10

  PU Prevention and Management ............................................................................ 12

  Nurse Staffing ......................................................................................................... 14


Appendixes
  A. Facility Profile ....................................................................................................      15

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures......                                                16

  C. VISN Director Comments ..................................................................................                  17

  D. Facility Director Comments ...............................................................................                 18

  E. OIG Contact and Staff Acknowledgments .........................................................                            24

  F. Report Distribution .............................................................................................          25

  G. Endnotes ...........................................................................................................       26





VA OIG Office of Healthcare Inspections
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA



                                Executive Summary

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
April 29, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following activity:

 Nurse Staffing

The facility’s reported accomplishment was hosting the 32nd National Veterans
Wheelchair Games in June 2012.

Recommendations: We made recommendations in the following five activities:
Quality Management: Consistently initiate Focused Professional Practice Evaluations
for newly hired licensed independent practitioners, and consistently report results to the
Medical Executive Committee. Scan non-VA purchased diagnostic test results into
electronic health records.

Environment of Care: Ensure that patient care areas and furnishings are clean and that
inpatient rooms and emergency department medical equipment are consistently
terminally cleaned. Require that operating room employees who perform immediate
use sterilization receive initial training.

Medication Management – Controlled Substances Inspections: Consistently conduct
weekly inventories of automated dispensing machines.         Ensure all required
non-pharmacy areas with controlled substances are inspected.

Coordination of Care – Hospice and Palliative Care: Include a dedicated nursing
representative on the Palliative Care Consult Team. Ensure all hospice and palliative
care staff and other clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Pressure Ulcer Prevention and Management: Perform and document a skin inspection
and risk scale prior to discharge. Accurately document pressure ulcer location, stage,
risk scale score, and date acquired. Perform and document daily skin inspections and
risk scales for patients at risk for or with pressure ulcers. Provide and document
pressure ulcer education for patients at risk for and with pressure ulcers and/or their
caregivers.




VA OIG Office of Healthcare Inspections                                                        i
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 17–23, for the full
text of the Directors’ comments.) We consider recommendations 1, 5, and 8 closed.
We will follow up on the planned actions for the open recommendations until they are
completed.




                                                         JOHN D. DAIGH, JR., M.D.

                                                        Assistant Inspector General for

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA



                              Objectives and Scope

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following six activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   PU Prevention and Management

   	   Nurse Staffing

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
April 26, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
Hunter Holmes McGuire VA Medical Center, Richmond, Virginia, Report
No. 10-02987-78, January 31, 2011).

During this review, we presented crime awareness briefings for 116 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and




VA OIG Office of Healthcare Inspections                                                       1
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
397 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment

National Wheelchair Games
The National Veterans Wheelchair Games are an outgrowth of the VA’s historic
involvement in wheelchair sports. Wheelchair sports had their beginning after the
aftermath of World War II, when young disabled veterans began playing basketball in
VA hospitals. The first National Veterans Wheelchair Games were held in 1981 in
Richmond, VA. That year, 74 veterans from 14 states competed. In 2012, the facility
hosted the 32nd National Veterans Wheelchair Games June 24–30. Fifty-two planning
committees were coordinated to ensure successful hosting and execution of the games
for the athletes while managing the facility’s operational needs. Five hundred and forty
athletes from around the Nation competed in the games, and more than
3,000 community volunteers participated in events throughout the games.




VA OIG Office of Healthcare Inspections                                                       2
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA



                         Results and Recommendations

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
 X     FPPEs for newly hired LIPs complied with          Fifty-two profiles reviewed:
       selected requirements.                             Seven FPPEs (13 percent) were not initiated.
                                                          Of the 45 FPPEs completed, results of
                                                            23 (51 percent) were not reported to the
                                                            MEC.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.



VA OIG Office of Healthcare Inspections                                                                 3
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


 NC            Areas Reviewed (continued)                                   Findings
       The EHR copy and paste function was
       monitored.
 X     Appropriate quality control processes were in     Ten EHRs of patients who had non-VA
       place for non-VA care documents, and the          purchased diagnostic tests reviewed:
       documents were scanned into EHRs.                  Six test results were not scanned into the
                                                           EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were
       transmitted to the data center with the
       required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that FPPEs for newly hired
LIPs are consistently initiated and that results are consistently reported to the MEC.

2. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.




VA OIG Office of Healthcare Inspections                                                                 4
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the hemodialysis, medicine, surgery, and locked mental health units; two
intensive care units; the CLC; the ED; and SPS. Additionally, we reviewed relevant documents,
conversed with key employees and managers, and reviewed 30 employee training and
competency files (10 hemodialysis, 10 OR, and 10 SPS). The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.        In five of the seven patient care areas
                                                           inspected, the floors and/or bases of bedside
                                                           tables were not clean.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
 X     The facility complied with any additional         Local policies on cleaning and disinfection of
       elements required by VHA, local policy, or        non-critical RME, patient care items, and
       other regulatory standards.                       terminal room cleaning reviewed:
                                                          On the medical unit, staff did not consistently
                                                            terminally clean inpatient rooms. In the ED,
                                                            staff did not consistently terminally clean
                                                            intravenous pumps, poles, and stretchers.
             Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and management
       of infection prevention precautions patients.




VA OIG Office of Healthcare Inspections                                                                      5
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


 NC          Areas Reviewed for Hemodialysis                                Findings
                          (continued)
       Monthly biological water and dialysate testing
       were conducted and included required
       components, and identified problems were
       corrected.
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
       Selected EOC/infection prevention/safety
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for IUS (flash) and monitored it.
       Employees received required RME training
       and competency assessment.
 X     OR employees who performed IUS (flash)              Of the four OR employees on duty for less
       received training and competency                     than or equal to 2 years who performed IUS,
       assessment.                                          there was no evidence that three received
                                                            initial training.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

3. We recommended that processes be strengthened to ensure that patient care areas and
furnishings are clean and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                   6
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


4. We recommended that processes be strengthened to ensure that inpatient rooms and ED
medical equipment are consistently terminally cleaned and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that OR employees who
perform IUS receive initial training.




VA OIG Office of Healthcare Inspections                                                                 7
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CSCs and 10 CS inspectors and inspection documentation from 10 CS areas,
the inpatient and outpatient pharmacies, and the emergency drug cache. The table below
shows the areas reviewed for this topic. The areas marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
 X     Instructions for inspecting automated             Automated dispensing machine inspection
       dispensing machines were documented,              instructions reviewed:
       included all required elements, and were           Although instructions required weekly
       followed.                                            inventories of automated dispensing
                                                            machines, they were not consistently
                                                            conducted.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CSC position description(s) or functional
       statement(s) included duties, and CSC(s)
       completed required certification and were free
       from conflicts of interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
 X     Non-pharmacy areas with CS were inspected Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and       the past 6 months reviewed:
       inspections included all required elements.     One monthly inspection was missed in three
                                                         different non-pharmacy areas.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

6. We recommended that processes be strengthened to ensure that weekly inventories of
automated dispensing machines are consistently conducted and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 8
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


7. We recommended that processes be strengthened to ensure that all required
non-pharmacy areas with CS are inspected and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 9
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA




Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

NC                     Areas Reviewed                                         Findings
X      A PCCT was in place and had the dedicated         List of staff assigned to the PCCT reviewed:
       staff required.                                    A nursing representative had not been
                                                            dedicated to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
X      HPC staff and selected non-HPC staff had           There was no evidence that four HPC staff
       end-of-life training.                               had end-of-life training.
                                                          There was no evidence that 11 non-HPC staff
                                                           had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.




VA OIG Office of Healthcare Inspections                                                                 10
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


 NC            Areas Reviewed (continued)                                   Findings
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

8. We recommended that processes be strengthened to ensure that the PCCT includes a
dedicated nursing representative.

9. We recommended that processes be strengthened to ensure that all HPC staff and other
clinical staff who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                                11
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


PU Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive PU prevention and management.5

We reviewed relevant documents, 21 EHRs of patients with PUs (6 patients with
hospital-acquired PUs, 10 patients with community-acquired PUs, and 5 patients with PUs at the
time of our onsite visit), and 10 employee training records. Additionally, we inspected one
patient room. The table below shows the areas reviewed for this topic. The areas marked as
NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                        Findings
       The facility had a PU prevention policy, and it
       addressed prevention for all inpatient areas
       and for outpatient care.
       The facility had an interprofessional PU
       committee, and the membership included a
       certified wound care specialist.
       PU data was analyzed and reported to facility
       executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were              Four of the 16 applicable patients did not
       performed upon transfer, change in condition,       have a skin inspection and risk scale
       and discharge.                                      performed prior to discharge.
 X     Staff were generally consistent in                 For 11 of the 19 applicable patients, staff
       documenting location, stage, risk scale score,      were inconsistent in documentation of PU
       and date acquired.                                  location, stage, risk scale score, and date
                                                           acquired.
 X     Required activities were performed for             Two of the six applicable patients at risk for
       patients determined to be at risk for PUs and       PUs did not consistently have daily skin
       for patients with PUs.                              assessments performed and documented.
                                                          Eight of the 19 applicable patients at risk for
                                                           or with PUs did not consistently have daily
                                                           risk scales performed and documented.
       Required activities were performed for
       patients determined to not be at risk for PUs.
       For patients at risk for and with PUs,
       interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s PU was not healed at
       discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                      12
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


 NC                    Areas Reviewed                                         Findings
  X    The facility defined requirements for patient     Facility PU patient and caregiver education
       and caregiver PU education, and education on      requirements reviewed:
       PU prevention and development was provided         None of the three applicable EHRs contained
       to those at risk for and with PUs and/or their       evidence that PU education was provided to
       caregivers.                                          the patient and/or their caregiver.
       The facility defined requirements for staff PU
       education, and acute care staff received
       training on how to administer the PU risk
       scale, conduct the complete skin assessment,
       and accurately document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in PU patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that acute care staff perform
and document a skin inspection and risk scale prior to discharge and that compliance be
monitored.

11. We recommended that processes be strengthened to ensure that acute care staff
accurately document PU location, stage, risk scale score, and data acquired and that
compliance be monitored.

12. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily skin inspections and risk scales for patients at risk for or with PUs and that
compliance be monitored.

13. We recommended that processes be strengthened to ensure that acute care staff provide
and document PU education for patients at risk for and with PUs and/or their caregivers and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                13
                                   CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and mental health).6

We reviewed relevant documents and 24 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 4C, CLC unit 1N, and mental health unit 1F for 52 randomly selected days (holidays,
weekdays, and weekend days) between October 1, 2012, and March 31, 2013. The table below
shows the areas reviewed for this topic. Any items that did not apply to this facility are marked
NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                       Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                14
                               CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA
                                                                                            Appendix A


    Facility Profile (Richmond/652) FY 2013 through March 2013a
Type of Organization                                                                   Tertiary
Complexity Level                                                                       1a
Affiliated/Non-Affiliated                                                              Affiliated
Total Medical Care Budget in Millions                                                  $407.4
Number of:
    Unique Patients                                                                   38,978
    Outpatient Visits                                                                 259,170
    Unique Employeesb                                                                 2,277
Type and Number of Operating Beds (through
February 2013):
    Hospital                                                                          294
    CLC                                                                               98
    Mental Health                                                                     23
Average Daily Census (through February 2013):
    Hospital                                                                          172
    CLC                                                                               67
    Mental Health                                                                     6
Number of Community Based Outpatient Clinics                                           3
Location(s)/Station Number(s)                                                          Fredericksburg/652GA
                                                                                       Charlottesville/652GE
                                                                                       Emporia/652GF
VISN Number                                                                            6




a
    All data is for FY 2013 through March 2013 except where noted.

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period.



VA OIG Office of Healthcare Inspections                                                                  15
                            CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA
                                                                                         Appendix B


                          VHA Patient Satisfaction Survey

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                   Inpatient Scores                                 Outpatient Scores
                       FY 2012                                          FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    54.2            59.0            54.7             51.1             48.5             55.4
    VISN        59.5            64.6            49.7             49.7             49.7             51.5
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   16.3            12.2             13.2            21.1             26.4             21.8
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         16
                           CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA
                                                                                        Appendix C
                                VISN Director Comments



                Department of
                Veterans Affairs	                                 Memorandum


       Date:	           July 12, 2013

       From:	           Director, VA Mid-Atlantic Health Care Network (10N6)

       Subject:	        CAP Review of the Hunter Holmes McGuire VA Medical
                        Center, Richmond, VA

       To:	             Director, Washington, DC, Office of Healthcare Inspections
                        (54DC)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       I have reviewed the draft CAP Review report of the Hunter Holmes
       McGuire VAMC. I concur with the findings and the response by the
       facility.

       Please contact me at 919-956-5541 if there are any questions.


              (original signed by:)
       Daniel F. Hoffmann, FACHE
       Network Director (VISN 6)




VA OIG Office of Healthcare Inspections                                                        17
                          CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA
                                                                                       Appendix D
                             Facility Director Comments



                Department of
                Veterans Affairs	                                Memorandum


       Date:	           July 11, 2013

       From:	           Director, Hunter Holmes McGuire VA Medical Center
                        (652/00)

       Subject:	        CAP Review of the Hunter Holmes McGuire VA Medical
                        Center, Richmond, VA

       To:	             Director, VA Mid-Atlantic Health Care Network (10N6)

       I have reviewed the findings from the CAP Review of the Hunter Holmes
       McGuire VAMC and I concur with the findings and the response as
       follows. The facility response and action plans are attached. If there are
       any questions, please contact R. Crystal Polatty, MD at 804-675-5000.


         (original signed by:)
       John A. Brandecker
       Director




VA OIG Office of Healthcare Inspections                                                       18
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


                               Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
FPPEs for newly hired LIPs are consistently initiated and that results are consistently
reported to the MEC.

Concur

Target date for completion: Completed October 2012

Facility response: The data for LIP FPPE’s pulled for review was from 2011. The facility
self-identified the issue prior to the survey. In FY 13 a new tracking process was
developed to assure that FPPE’s were initiated and reported as appropriate for all new
LIP’s after Enter on Duty (EOD) date. The current spreadsheet has been furnished to
OIG. The FPPE’s have been presented to the Medical Executive Board for at least
4 months.

Recommendation 2. We recommended that processes be strengthened to ensure that
the results of non-VA purchased diagnostic tests are consistently scanned into EHRs.

Concur

Target date for completion: September 30, 2013

Facility response: The documentation required is for emergent care that is not
pre-approved by the facility and is managed by the VISN 6 Centralized Fee Unit (CFU).
VISN 6 staff will develop a process with the CFU to ensure that the facility receives
medical records to scan into CPRS. The VISN Centralized program will send all names
of non-VA emergent paid cases to the facility. The number of cases will be the
denominator and the number of records scanned into CPRS will be the numerator.
Data will be reported to QEB until >90% for at least 3 months.

Recommendation 3. We recommended that processes be strengthened to ensure that
patient care areas and furnishings are clean and that compliance be monitored.

Concur

Target date for completion: July 15, 2013




VA OIG Office of Healthcare Inspections                                                      19
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


Facility response:

   1.	 Infection Control Guidelines for the daily cleaning of patient rooms were revised
       and adopted by the Infection Control Committee. A checklist was developed and
       placed on the OIG shared site.
   2.	 All EMS personnel were retrained on the proper cleaning of patient rooms
       according to the revised guidelines. This training was completed on 6/17/2013.

Compliance monitoring:

   1.	 EMS supervisors will monitor overall cleanliness and furnishings’ appearance by
       direct observation of EMS compliance with the daily checklist. Results of this
       monitor and the usual EOC rounds will be presenting monthly at the EOC
       meeting.
   2.	 Results of compliance with the checklist will be presented to QEB
       until > 90% compliance for a minimum of 3 months.

Recommendation 4. We recommended that processes be strengthened to ensure that
inpatient rooms and ED medical equipment are consistently terminally cleaned and that
compliance be monitored.

Concur

Target date for completion: July 15, 2013 for EMS action and July 12, 2013 for SPS
action.

Facility response:

   1.	 Infection Control Guidelines for the cleaning of patient rooms including terminal
       cleaning were revised and adopted by the Infection Control Committee.
   2.	 All EMS personnel were retrained on the proper cleaning of patient rooms
       according to the revised guidelines and checklist. This training was completed
       on 6/17/2013.
   3.	 Revised procedures for the cleaning of IV pumps and poles were developed that
       include cleaning of all pumps by SPS personnel, standard delivery of cleaned
       pumps to clinical areas including ER by logistics personnel, and defined roles of
       nursing in the proper use and cleaning IV pumps and poles. Memorandum of
       “Proper Disinfection of Alaris Pumps” and Poles to be issued and staff educated
       on new protocol. The memo has been provided to the OIG. Nurse managers
       were educated on the new policy on July 11, 2013.

Compliance monitoring:

EMS actions:
  1.	 EMS supervisors began ATP luminometer testing of rooms that have undergone
      terminal cleaning as of June 20, 2013. Rooms with high values (>200) will be
      immediately re-cleaned. Results of ATP testing will be summarized and
      presented by EMS at the Infection Control Committee meeting monthly.


VA OIG Office of Healthcare Inspections                                                      20
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


   2.	 Results will be presented to QEB monthly until > 90 % compliance for at least
       3 months.

SPS actions:
  1.	 IV Pumps and poles. SPS will deliver all pumps covered with plastic and initialed
      by the SPS employee. Compliance will be monitored by RME rounds twice a
      month and routinely reported to RME committee and Infection Control. Results
      will be reported to QEB monthly until >90% for at least 3 months.

Recommendation 5. We recommended that processes be strengthened to ensure that
OR employees who perform IUS receive initial training.

Concur

Target date for completion: Completed May 8, 2013.

Facility response: 100% of OR nurses have completed training. Any new staff will
demonstrate competency prior to performing IUS.

Recommendation 6. We recommended that processes be strengthened to ensure that
weekly inventories of automated dispensing machines are consistently conducted and
that compliance be monitored.

Concur

Target date for completion: August 30, 2013

Facility response: Nursing staff will be educated on performing weekly inventories of the
automated dispensing machines. The Controlled Substance Coordinators will send the
report to the Associate Director of Patient Care Services (ADPCS) monthly for
appropriate intervention. The Controlled Substance Coordinators will monitor monthly
as is required. Reports will be submitted to QEB monthly until compliance is at 90% or
greater for at least 3 months.

Recommendation 7. We recommended that processes be strengthened to ensure that
all required non-pharmacy areas with CS are inspected and that compliance be
monitored.

Concur

Target date for completion: Completed March 1, 2013.

Facility response: The facility self-identified the issue prior to the survey. The
importance of completing inspections was reviewed with staff prior to the OIG CAP
survey. Since March of 2013, compliance with non-Pharmacy inspections has been
100%. Reports will continue monthly and percent compliance reported to the QEB until
closure of the recommendation.



VA OIG Office of Healthcare Inspections                                                      21
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


Recommendation 8. We recommended that processes be strengthened to ensure that
the PCCT includes a dedicated nursing representative.

Concur

Target date for completion: Completed July 3, 2013.

Facility response: The facility self-identified the issue prior to the survey. The position of
NP for Hospice and Palliative Care had been under recruitment and hired prior to the
CAP survey. The employee entered on duty July 3, 2013 and will serve on the PCCT.

Recommendation 9. We recommended that processes be strengthened to ensure that
all HPC staff and other clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Concur

Target date for completion: September 30, 2013

Facility response: All clinical staff will have appropriate TMS modules added to their
training. Goal is for >90% of applicable staff to have the training. Education Service
Line (ESL) will monitor TMS and report monthly to QM until >90% compliance has been
achieved for a minimum of 3 months.

Recommendation 10. We recommended that processes be strengthened to ensure
that acute care staff perform and document a skin inspection and risk scale prior to
discharge and that compliance be monitored.

Concur

Target date for completion: September 30, 2013

Facility response: Acute care staff will be re-educated on requirement to complete skin
inspection and risk scale prior to discharge. Compliance will be monitored and reported
to QEB monthly until >90% each month for at least 3 months.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff accurately document PU location, stage, risk scale score, and data
acquired and that compliance be monitored.

Concur

Target date for completion: September 30, 2013

Facility response: Acute care staff will be re-educated on PU location, stage, risk scale
score, and date acquired. Compliance will be monitored by chart review and reported
monthly to QEB until >90% compliance for at least 3 months. Compliance will be




VA OIG Office of Healthcare Inspections                                                      22
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA


monitored by chart review and reported to QEB monthly until > 90% each month for at
least 3 months.

Recommendation 12. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily skin inspections and risk scales for
patients at risk for or with PUs and that compliance be monitored.

Concur

Target date for completion: September 30, 2013

Facility response: Acute care staff will be re-educated on daily skin inspections and risk
scales for patients at risk for or with PUs. Compliance will be monitored by chart
reviews and reported monthly to QEB until >90% compliance for at least 3 months.

Recommendation 13. We recommended that processes be strengthened to ensure
that acute care staff provide and document PU education for patients at risk for and with
PUs and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: September 30, 2013

Facility response: Education will be provided to acute care staff on education and
materials for use with patients. The acute care staff who receives the patient with a
high risk score or a PU is responsible for providing appropriate education to the patient
and caregivers, providing written information, and documenting the education given.
Compliance will be monitored by chart review and reported to QEB monthly until >90%
for at least 3 months.




VA OIG Office of Healthcare Inspections                                                      23
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact	                For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite	                 Gail Bozzelli, RN, Team Leader
Contributors	           Bruce Barnes
                        Don Braman, RN
                        Donna Giroux, RN
                        Kathy Gudgell, RN, JD
                        Randall Snow, JD
                        Keith Vereb
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Natalie Sadow-Colón, MBA
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      24
                         CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Mid-Atlantic Health Care Network (10N6)
Director, Hunter Holmes McGuire VA Medical Center (652/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tim Kaine, Mark R. Warner
U.S. House of Representatives: Robert C. Scott


This report is available at www.va.gov/oig/.




VA OIG Office of Healthcare Inspections                                                      25
                            CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA
                                                                                        Appendix G

                                               Endnotes

1
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009.

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation

   Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Material Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010.
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       26
                                CAP Review of the Hunter Holmes McGuire VA Medical Center, Richmond, VA



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                 27
